PRICING SCHEDULE
03/31/21.
This is an example of terms that were available to recent applicants as of .
06/30/21
This Pricing Schedule is part of the Cardmember Agreement.

Interest Rates and Interest Charges
Annual Percentage Rate (APR) for Purchases

2.%. This APR will vary with the market based on the Prime Rate.1
22.99%.

APR for Balance Transfers

2%. This APR will vary with the market based on the Prime Rate.1
22.99%.

APR for Cash Advances

2%. This APR will vary with the market based on the Prime Rate.1
24.99%.

Penalty APR and When It Applies

None

Paying Interest

Your due date is at least 25 days after the close of each billing period (at least 23 days for billing periods that begin in February). We will
not charge you any interest on purchases if you pay your entire balance by the due date each month. We will begin charging interest on
transaction
posted to your Account.

Minimum Interest Charge

If you are charged interest, the charge will be no less than $0.50.

Fees
Annual Fee

None

Balance Transfer Fee

% of the amount of each transfer.

Cash Advance Fee

Either $10 or 5% of the amount of each cash advance, whichever is greater.

Late Fee

None

Returned Payment Fee

Up to $3.
$40.

$40.
$3.

How We Will Calculate Your Balance: We will use a method called “daily balance (including current transactions)”. See the Cardmember Agreement for details.
The purchase and balance transfer APR is equal to the Prime Rate plus a margin of 19.74%.
The Cash Advance APR is equal to the Prime Rate plus a margin of 21.74%.

1

©2021 Discover Bank, Member FDIC
ª%JTDPWFS#BOL
CMASECDI063021 .FNCFS'%*$
CMASECDI033121
$."/13%*

-1-

-1-

SECURITY AGREEMENT
This is the Security Agreement for your Discover it® Secured Credit Card Account (“Account”). The words “you,” “your,” and “yours” mean you and any other person(s) who
are contractually liable under the Cardmember Agreement governing the Account. The words “our,” “us,” and “we” mean Discover Bank. “Business days” are Monday through
Friday, excluding Federal Reserve Bank holidays.

Security Deposit Account

In consideration of and as a condition to our opening the Account for you and other good and valuable consideration, you are providing funds from an account in your name to
serve as security for your Account (“Funds”). We will hold these Funds in an account (“Security Deposit Account”) under our exclusive control. You must maintain this Security
Deposit Account as security for the Account, and you grant us a security interest in the Security Deposit Account. This Security Deposit Account will include any and all future
extensions, renewals, or replacements of the Security Deposit Account. No portion of the Security Deposit Account may be used to secure other loans. The minimum amount
required to be deposited is the amount of your initial Account credit line but will not be less than $200. You may make a transfer to the Security Deposit Account solely for
purposes of funding your required security deposit. The Security Deposit Account will be solely owned by you. Funds in Discover Bank Security Deposit Accounts are insured by the
Federal Deposit Insurance Corporation (“FDIC”) up to the maximum allowable limits. For more detailed information on FDIC coverage, contact the FDIC directly at 1-877-ASKFDIC
(1-877-275-3342), (TDD: 1-800-925-4618) or visit www.fdic.gov. Discover will maintain separate records to account for your Funds.

Withdrawals

You will not be permitted to make withdrawals from the Security Deposit Account. (See Return of Funds Section below for terms and conditions regarding return of the Funds
and closure of your Account.)

Additional Funds

Other than depositing Funds to secure your Account, you will not be permitted to make deposits to the Security Deposit Account.

Security Deposit Account
Statements

You will get a monthly Security Deposit Account statement as part of your Account statement.

Electronic Fund Transfers
to or from your Security
Deposit Account

You may fund your Security Deposit Account with an electronic fund transfer (“Transfer”). If we do not complete a Transfer to your Security Deposit Account on time or in the
correct amount according to our agreement with you, we will be liable for your losses or damages. However, we will not be liable if circumstances beyond our control (such as
fire or flood) prevent the transfer, despite reasonable precautions that we have taken. In case of errors or questions about your funding Transfers call us at 1-800-347-3085 or
write us at P.O. Box 30943, Salt Lake City, UT 84130-0943 as soon as you can, if you think your statement is wrong or if you need more information about a funding Transfer
listed on the statement. We must hear from you no later than 60 days after we sent the FIRST statement on which the problem or error appeared. (1) Tell us your name and
Account number. (2) Describe the error or the Transfer you are unsure about, and explain as clearly as you can why you believe it is an error or why you need more information.
(3) Tell us the dollar amount of the suspected error. If you tell us orally, we may require that you send us your complaint or question in writing within 10 business days. We will
determine whether an error occurred within 10 business days after we hear from you and will correct any error promptly. If we need more time, however, we may take up to 45
days to investigate your complaint or question. If we decide to do this, we will credit your Security Deposit Account within 10 business days for the amount you think is in error (if
applicable), during the time it takes us to complete our investigation. If we ask you to put your complaint or question in writing and we do not receive it within 10 business days,
we may not credit your Security Deposit Account (if applicable). For errors involving a new Security Deposit Account, we may take up to 90 days to investigate your complaint or
question. For a new Security Deposit Account, we may take up to 20 business days to credit your Security Deposit Account (if applicable) for the amount you think is in error. We
will tell you the results within three business days after completing our investigation. If we decide that there was no error, we will send you a written explanation. You may ask
for copies of the documents that we used in our investigation.

Pledge and Grant of
Security Interest

You understand that granting us a security interest in the Security Deposit Account and the Funds is a necessary condition for opening your Account. As security for the prompt
payment and performance of all your obligations to us arising pursuant to the Account (“Obligations”), you hereby grant a security interest to us in all of your right, title, and
interest in the Security Deposit Account and any and all Funds, including all proceeds of and additions to the Security Deposit Account and the Funds. We may increase or decrease
your Account credit line and no such action shall change the fact that the Security Deposit Account and the Funds are held by us as security for the Obligations. You represent that
there are no current lawsuits or bankruptcy proceedings that might affect our interest in the Security Deposit Account or the Funds. You have not and will not attempt to transfer
or offer any interest in the Security Deposit Account or the Funds to any person other than us. You and we acknowledge that subject to our possession of and security interest in
the Security Deposit Account and the Funds, you retain beneficial ownership of the Security Deposit Account and the Funds for FDIC insurance purposes.

Interest on Funds

No interest will be paid on the Funds. If we do pay interest in the future, we will add it to the Security Deposit Account.

Application of Funds to
the Account

If you are in default under the Cardmember Agreement or the Account is closed for any reason, you authorize us at any time(s) to withdraw all or any portion of the Funds from
the Security Deposit Account and apply them to reduce your Obligations. Any such application of Funds will not constitute any part of the Minimum Payment Due under the
Cardmember Agreement. You will continue to be responsible for making payments as required under the Cardmember Agreement and for repaying any outstanding Obligations.
Our rights under this Security Agreement are in addition to any others we have under applicable law. We may make settlements or compromises on the Security Deposit Account,
transfer the Security Deposit Account to our name, or exercise ownership rights on the Security Deposit Account. We are not required to notify you of any of the above.

Return of Funds

If we determine that you qualify for return of any Funds from the Security Deposit Account, we will return these Funds to you by a method we deem sufficient. If your Account is
closed, we will return any excess Funds that remain in the Security Deposit Account after repayment of all Obligations. We generally return these excess Funds within ten days
after the end of the second billing period following the time that Funds are initially applied to reduce your Obligations. If we mail a check to you, we will mail it to your mailing
address on file with us for the Security Deposit and Card Accounts. In the event of your death, we will not release Funds on deposit unless all Obligations have been repaid and
all legal documents we require are delivered to us.

Confidentiality

We will disclose information to third parties about your Security Deposit Account or any transfers you make: (a) where it is necessary for completing a transfer, or (b) in order to
verify the existence and condition of your Security Deposit Account for a third party, or (c) in order to comply with government agency or court orders, or (d) if you give us your
written permission, or (e) as permitted by the privacy notice we have provided to you.

Legal Proceedings

We may comply with any writ of attachment, adverse claim, garnishment, tax levy, restraining order, subpoena, warrant or other legal proceeding involving your Security Deposit
Account which we believe to be valid. If your Account, your Security Deposit Account, or your Funds become involved or are likely to become involved in a legal proceeding,
you understand that the entire balance of your Funds in the Security Deposit Account may be restricted until the matter has been resolved. Such proceedings are subject to our
security interest. We shall be entitled to rely upon the representations, warranties, and statements made in such legal proceedings. You agree to hold harmless and indemnify us
for any losses, expenses and costs, including reasonable attorneys’ fees, incurred by us as a result of complying with such legal proceedings. In addition to the events of default
set forth in the Cardmember Agreement, you will be in default under the Cardmember Agreement if we are served or become involved with a legal proceeding regarding the
Funds or Security Deposit Account.

Miscellaneous

This Security Agreement and our security interest and rights as pledge hereunder are governed by Delaware law. We may, in our sole discretion, assign the Security
Deposit Account and our rights and obligations under this Security Agreement. If we use an attorney to defend or enforce our rights under this Security Agreement or
to perform any legal services in connection with this Security Agreement, we may charge you our legal costs as permitted by law. This Security Agreement supplements
the Cardmember Agreement. The other terms of the Cardmember Agreement apply to this Security Agreement, and as such disputes regarding the terms of this Security
Agreement are subject to Arbitration as set forth in the Cardmember Agreement. The terms of this Security Agreement shall survive and continue to apply to the
Security Deposit Account following closure of the Account or the Security Deposit Account, and shall be binding on you even if you cancel your Account or do not accept
the Cardmember Agreement as permitted in the Cardmember Agreement. If any part of the Security Agreement is invalid, the rest of the Security Agreement will remain in effect.

©2021 Discover Bank, Member FDIC

-2-

CARDMEMBER AGREEMENT
Thank you for choosing Discover® card. This Agreement explains the current terms and conditions of your Account. The enclosed Pricing Schedule is part of this Agreement. Please read this Agreement, including
the Pricing Schedule, carefully. Keep them for your records. Contact us if you have any questions. We have included a “Definitions” section for your reference on page 3.

ACCEPTANCE OF AGREEMENT
You accept this Agreement if you do not cancel your Account within 30 days after receiving a Card. You also accept this Agreement if you or an Authorized User use the
Account. You may, however, reject the “Arbitration of Disputes” section as explained in that section.

CHANGES TO YOUR AGREEMENT
The rates, fees and terms of this Agreement may change from time to time. We may add or delete any term to this Agreement. If required by law, we will give you advance
written notice of the change(s) and a right to reject the change(s). We will not charge any fee or interest charge prohibited by law.

USING YOUR ACCOUNT
Permitted Uses

You may use your Account for Purchases, Balance Transfers and Cash Advances. You may not use it for illegal transactions.

Authorized Users

You may request additional Cards for Authorized Users to make transactions on your Account. You must notify us if you wish to cancel the authority of an Authorized User to
use your Account. You are responsible for all charges made by your Authorized Users.

Joint Accounts

If your Account is a joint Account
• each of you agrees to be liable individually and jointly for the entire amount owed on the Account; and
• any notice we mail to an address provided by either of you for the Account will serve as notice to both of you.
If we provide you with Checks, we will tell you whether we will treat the Check as a Purchase, Balance Transfer or Cash Advance. You may not use these Checks to pay
any amount you owe us.

Checks
Credit Authorizations

We may not authorize a transaction for security or other reasons. We will not be liable to you if we decline to authorize a transaction or if anyone refuses your Card, Check
or Account number.

Credit Lines

We will tell you what your Account credit line is. You must keep your Account
balance below your Account credit line. If you do not, we may request immediate
payment of the amount by which you exceed it. We may establish a lower credit line

for Cash Advances. We may increase or decrease your Account credit line or your
Cash Advance credit line without notice. We may delay increasing your available
credit by the amount of any payment that we receive for up to 10 business days.

FEES (See your Pricing Schedule for Additional Fees)
Late Fee

We will not charge a Late Fee the first time you do not make the Minimum Payment
Due by the Payment Due Date. After that, if you do not pay the Minimum Payment
Due by the Payment Due Date, we will charge you a Late Fee. The fee is $29, if you

were not charged a Late Fee during any of the prior six billing periods. Otherwise,
the fee is $40. This fee will never exceed the Minimum Payment Due that was due
immediately prior to the date on which the fee was assessed.

Returned Payment Fee

If you make a payment that is not honored by your financial institution, we will
charge you a Returned Payment Fee even if the payment is honored after we
re-submit it. The fee is $29 if you were not charged a Returned Payment Fee during

any of the prior six billing periods. Otherwise, the fee is $40. This fee will never
exceed the Minimum Payment Due that was due immediately prior to the date on
which the payment was returned to us.

ANNUAL PERCENTAGE RATES (“APRs”) (See your Pricing Schedule for the APRs that apply to your Account)
Variable APRs

Your Pricing Schedule may include variable APRs. These APRs are determined
by adding the number of percentage points that we specify to the Prime Rate.
Variable APRs will increase or decrease when the Prime Rate changes. The APR

Penalty APR

None

change will take effect on the first day of the billing period that begins during
the same calendar month that the Prime Rate changes. An increase in the APR
will increase your interest charges and may increase your Minimum Payment Due.

MAKING PAYMENTS
Payment Instructions

• You must pay in U.S. dollars. Please do not send cash. Sending cash is not
allowed. All checks must be drawn on funds on deposit in the U.S.
• You must pay us for all amounts due on your Account. This includes charges
made by Authorized Users.
• We may refuse to accept a payment in a foreign currency. If we do accept it,
we will charge your Account our cost to convert it to U.S. dollars.
• We can accept late payments, partial payments or payments marked
“payment in full” or with any other restrictive endorsement without
losing any of our rights under this Agreement.
• We credit your payments in accordance with the terms contained on your

billing statement.
• If you mail your payment to an address other than the address designated on
your billing statement, there may be a delay in processing and crediting the
payment to your Account.
• If a third party makes a payment on your Account and we return all or a part
of such payment, then we may adjust your Account for any amount returned.
We reserve the right to defend ourselves against any demand to return funds
we have received, and may agree to a compromise of the demanded amount as
part of a settlement.

Minimum Payment Due

You may pay the entire New Balance shown on your billing statement at any time. Each
billing period you must pay at least the Minimum Payment Due by the Payment Due Date
shown on your billing statement. The Minimum Payment Due will be the greater of:
• $20; or
• Any amount past due plus the greater of:
– 3% of the New Balance shown on your billing statement (excluding any Interest
Charges and Late Fee shown on your billing statement); or

– $15, plus any of the following charges as shown on your billing statement:
fees for any debt protection product that you enrolled in on or after 2/1/2015;
Interest Charges; and Late Fees (not to exceed 4% of the New Balance).
The Minimum Payment Due may also include amounts by which you exceed your
Account credit line. It will never exceed the New Balance. When we calculate the
Minimum Payment Due, we may subtract from the New Balance certain fees added
to your Account during the billing period. The Minimum Payment Due is rounded
up to the nearest dollar.

©2021 Discover Bank, Member FDIC

-3-

MAKING PAYMENTS
How We Apply Payments

We apply payments and credits at our discretion, including in a manner most
favorable or convenient for us. In all cases, we will apply payments and credits as
required by applicable law.

Each billing period, we will generally apply amounts you pay that exceed the
Minimum Payment Due to balances with higher APRs before balances with lower
APRs as of the date we credit your payment.

How We Calculate Interest
Charges—Daily Balance
Method (including current
transactions)

We calculate interest charges each billing period by first figuring the “daily balance”
for each Transaction Category. Transaction Categories include standard Purchases,
standard Cash Advances and different promotional balances, such as Balance Transfers.
How We Figure the Daily Balance for Each Transaction Category
• We start with the beginning balance for each day. The beginning balance for the
first day of the billing period is your balance on the last day of your previous billing period.
• We add any interest charges accrued on the previous day’s daily balance and any
new transactions and fees. We add any new transactions or fees as of the later of
the Transaction Date or the first day of the billing period in which the transaction
or fee posted to your Account.
• We subtract any new credits and payments.
• We make other adjustments (including those adjustments required in the “Paying
Interest” section).

How We Figure Your Total Interest Charges
• We multiply the daily balance for each Transaction Category by its daily periodic
rate. We do this for each day in the billing period. This gives us the interest charges
for each Transaction Category. To get a daily periodic rate, we divide the APR that
applies to the Transaction Category by 365.
• We add up all the daily interest charges. The sum is the total interest charge for
the billing period.
How We Include Fees
We add Balance Transfer Fees to the applicable Balance Transfer Transaction
Category. We add Cash Advance Fees to the applicable Cash Advance Transaction
Category. We add all other fees to the standard Purchase Transaction Category.

Paying Interest

When Interest Charges Begin
We begin to impose interest charges on a transaction, fee or interest charge from
the day we add it to the daily balance. We continue to impose interest charges
until you pay the total amount you owe us. You can avoid paying interest on
Purchases as described below. However, you cannot avoid paying interest on
Balance Transfers or Cash Advances.
How to Avoid Paying Interest on Purchases (“Grace Period”)
If you pay the New Balance on your current billing statement by the Payment Due

Date shown on that billing statement, we will not impose interest charges on
New Purchases. New Purchases are Purchases that first appear on the next billing
statement. Interest will continue to accrue each day on Purchases that appeared on
previous billing statements until you pay the New Balance in full and will be billed in
the next billing cycle.
How We Apply Payments May Impact Your Grace Period
If you do not pay your New Balance in full each month, then, depending on the balance
to which we apply your payment, you may not get a grace period on new Purchases.

INTEREST CHARGES

OTHER IMPORTANT INFORMATION
Default

You are in default if:
• you file bankruptcy or another insolvency proceeding is filed by you or against you;
• we have a reasonable belief that you are unable or unwilling to repay your
obligations to us;
• you die or are legally declared incompetent or incapacitated;

Collection Costs

If we use an attorney to collect your Account, we may charge you our legal costs as permitted by law. These include reasonable attorneys’ fees, court or other collection costs,
and fees and costs of any appeal.

Merchant Disputes

If you have a dispute with a merchant, you may request a credit to your Account. If we resolve the dispute in your favor, we will issue a credit to your Account. You assign to us
your claim for the credited amount against the merchant and/or any third party. At our request, you agree to provide this assignment in writing.

Automatic Account
Information Updates

You may set up automatic billing or store your Account information with an Affiliate, merchant, wallet provider, or other third party (“Permitted Party”). If you do, you authorize
us to share your Account information, which may include your rewards account balance, with the Permitted Party, regarding the use of your Account. If your Account information
changes, which may include your billing address, you authorize us to provide this updated information to any such Permitted Party at our discretion. You must contact the Permitted
Party directly or remove your credit card information from the Permitted Party website if you wish to stop automatic billing or Account updates.

Our Privacy Policy

We send you our Privacy Policy when you open your Account and annually. Contact us
or visit Discover.com if you would like a copy. Please read it carefully. It summarizes:
• the personal information we collect;

• how we safeguard its confidentiality and security;
• when it may be shared with others; and
• how you can limit our sharing of this information.

Credit Reporting
Agency Information

You authorize us to get information from credit reporting agencies and other sources
for servicing or review of your Account, collection and any other use permitted by
law, including to consider you for other products and services. We may report the
status and payment history of your Account to credit reporting agencies and other

creditors. We normally report to credit reporting agencies each month. If you believe
that information we reported is inaccurate or incomplete, please write us at Discover,
P.O. Box 30939, Salt Lake City, UT 84130-0939. Please include your name, address,
home phone number and Account number.

Our Communications
with You

You agree that we, our Affiliates, and agents, including service providers (“Authorized
Parties”) may contact you, including calls, text message or email, about any current
or future accounts or applications, with respect to all products you have with us
at any phone number or email (i) you have provided to us, (ii) from which you
contacted us, or (iii) which we obtained and believe we can reach you at, even if
your phone provider may charge you message and data rates for calls or texts. You
agree that the Authorized Parties may record or monitor any calls between you and
the Authorized Parties. You agree to notify us if you change or discontinue using any

phone number you provide. You agree that the Authorized Parties may contact you
using an automatic dialer or pre-recorded voice message. If you no longer wish to be
contacted on your cell phone by an automated dialer or pre-recorded voice message,
you must provide us written notice cancelling your consent at this address: Discover
Bank, P.O. Box 30937, Salt Lake City, UT 84130-0937. The written notice must include:
your name, mailing address, the last four digits of your Account number and the
specific cell phone number(s) for which you would like to cancel your consent to be
contacted by an automated dialer or pre-recorded voice message.

Unauthorized Use

You must notify us immediately if:
• your Card is lost or stolen; or

• you believe someone is using your Account or a Card without your permission.

Cancellation of
Your Account

• You may cancel your Account. You will remain responsible for any amount you
owe us under this Agreement.
• Any joint Accountholder may cancel a joint Account. However, both of you will
remain responsible for paying all amounts owed.
-4-

• We may cancel, suspend or not renew your Account at any time without notice.

• you fail to comply with the terms of this Agreement or any Agreement with us or
an Affiliate, including failing to make a required payment when due, exceeding
your Account credit line or using your Card or Account for an illegal transaction.
If you are in default, we may declare the entire balance of your Account immediately
due and payable without notice.

Purchases and Cash Advances
in Foreign Currencies

If you make a Purchase or Cash Advance in a foreign currency, we will convert
it to U.S. dollars using a rate we choose. This rate will either be a governmentmandated rate, a government-published rate or the interbank exchange rate,

Governing Law

This Agreement is governed by applicable federal law and by Delaware law. However, in the event you default and we file a lawsuit to recover funds loaned to you, the
statute of limitations of the state where the lawsuit is filed will apply, without regard to that state’s conflicts of laws principles or its “borrowing statute.”

Severability

Except as set forth in the “Arbitration” section, if any part of this Agreement is found to be invalid, the rest of it will still remain in effect.

Enforcing this Agreement

We may delay enforcing or not enforce any of our rights under this Agreement without losing or waiving any of them.

Assignment of Account

We may sell, assign or transfer your Account or any portion of it without notice to you. You may not sell, assign or transfer your Account without first obtaining our prior
written consent.

depending on the country and currency in which the transaction is made. We
use the rate in effect on the conversion date for the transaction. This rate may
be different than the rate in effect on the Transaction Date for the transaction.

MILITARY BORROWERS
Statement of MAPR

Federal law provides important protections to members of the Armed Forces and
their dependents relating to extensions of consumer credit. In general, the cost of
consumer credit to a member of the Armed Forces and his or her dependent may
not exceed an Annual Percentage Rate of 36 percent. This rate must include, as
applicable to the credit transaction or account: (1) the costs associated with credit
insurance premiums; (2) fees for ancillary products sold in connection with the

Oral Disclosures

Before agreeing to this Agreement, in order to hear important disclosures and payment information about this Agreement, please call 1-844-DFS-4MIL (1-844-337-4645)
anytime 24/7. If calling outside the U.S., you can contact us at +1-801-451-3730.

credit transaction; (3) any application fee charged (other than certain application
fees for specified credit transactions or accounts); and (4) any participation fee
charged (other than certain participation fees for a credit card account). If you
would like more information about whether this section applies to you, please
contact us at 1-844-DFS-4MIL (1-844-337-4645) anytime 24/7. If calling outside
the U.S. you can contact us at +1-801-451-3730.

CONTACT US
Unless we tell you otherwise, you can notify us: • by phone at 1-800-347-3085 or • in writing to Discover, P.O. Box 30943, Salt Lake City, UT 84130-0943.
When writing, please include your name, address, home phone number and Account number. You must contact us within 15 days after changing your email address, mailing address or phone number.

DEFINITIONS
“Account” means your Discover card account.
“Affiliate” means our parent corporations, subsidiaries and affiliates.
“Authorized User” means any person you authorize to use your Account or a Card, whether you
notify us or not.
“Balance Transfer” means a balance transferred from another creditor to your Account.
“Card” means any one or more Discover cards issued to you or someone else with your
authorization.
“Cash Advance” means the use of your Account for:
• obtaining cash from participating automated teller machines, financial institutions or other
locations; and
• online gambling, or to purchase lottery tickets, money orders, casino chips, foreign currency or
similar items.

“Check” means any check we send to you to access your Account.
“Pricing Schedule” means the document entitled, “Pricing Schedule,” which lists the APRs that
apply to your Account and other important information.
“Prime Rate” means the highest rate of interest listed as the U.S. Prime rate in the Money Rates
section of the online Wall Street Journal (www.wsj.com) on the last business day of the month.
“Purchase” means the use of your Account to purchase or lease goods or services at
participating merchants.
“We,” “us” and “our” refer to Discover Bank, the issuer of your Card.
“You,” “your” or “yours” refer to you and any other person(s) who are also contractually liable
under this Agreement.
“Transaction Date” means the date shown on your billing statement for a transaction or fee.

ARBITRATION
Agreement to Arbitrate. In the event of a dispute between you
and us arising out of or relating to this Account or the relationships
resulting from this Account or any other dispute between you or
us, including, for example, a dispute based on a federal or state
statute or local ordinance (“Claim”), either you or we may choose
to resolve the Claim by binding arbitration, as described below,
instead of in court. Any Claim (except for a Claim challenging the
validity or enforceability of this arbitration agreement, including
the Class Action Waiver) may be resolved by binding arbitration
if either side requests it. THIS MEANS IF EITHER YOU OR WE
CHOOSE ARBITRATION, NEITHER PARTY WILL HAVE THE RIGHT TO
LITIGATE SUCH CLAIM IN COURT OR TO HAVE A JURY TRIAL. ALSO
DISCOVERY AND APPEAL RIGHTS ARE LIMITED IN ARBITRATION.
Even if all parties have opted to litigate a Claim in court, you or we
may elect arbitration with respect to any Claim made by a new party
or any new Claims later asserted in that lawsuit.
This arbitration agreement does not apply if, on the date you submit
your Application or on the date we seek to invoke this arbitration
agreement, you are a member of the Armed Forces or a dependent
of such a member covered by the federal Military Lending Act. If
you would like more information about whether you are covered
by the Military Lending Act, please contact us at 1-844-DFS-4MIL
(1-844-337-4645) or if you are calling from outside the U.S. at
+1-801-451-3730.

CLASS ACTION WAIVER. ARBITRATION MUST BE ON AN
INDIVIDUAL BASIS. THIS MEANS NEITHER YOU NOR WE MAY
JOIN OR CONSOLIDATE CLAIMS IN ARBITRATION BY OR AGAINST
OTHER CARDMEMBERS, OR LITIGATE IN COURT OR ARBITRATE
ANY CLAIMS AS A REPRESENTATIVE OR MEMBER OF A CLASS OR
IN A PRIVATE ATTORNEY GENERAL CAPACITY.
The arbitrator may award injunctive relief only in favor of the
individual party seeking relief and only to the extent necessary
to provide relief warranted by that party’s individual Claim. The
arbitrator may not award class, representative or public injunctive
relief. If a court decides that applicable law precludes enforcement
of any of this paragraph’s limitations as to a particular Claim
for relief, then after all appeals from that decision have been
exhausted, that Claim (and only that Claim) must be severed from
the arbitration and may be brought in court. Only a court, and not
an arbitrator, shall determine the validity, scope, and effect of the
Class Action Waiver.
Your Right to Go To Small Claims Court. We will not choose to
arbitrate any individual Claim you bring in small Claims court or your
state’s equivalent court. However, if such a Claim is transferred,
removed or appealed to a different court, we may then choose
to arbitrate.
-5-

Governing Law and Rules. This arbitration agreement is
governed by the Federal Arbitration Act (“FAA”). Arbitration must
proceed only with the American Arbitration Association (“AAA”).
The rules for the arbitration will be those in this arbitration
agreement and the procedures of the AAA, but the rules in this
arbitration agreement will be followed if there is disagreement
between the agreement and the AAA’s procedures. If the AAA’s
procedures change after the Claim is filed, the procedures in effect
when the Claim was filed will apply.
For a copy of the AAA’s procedures, to file a Claim or for other
information, please contact the AAA at 1101 Laurel Oak Rd.,
Voorhees, NJ 08043, www.adr.org (1-877-495-4185).
If the AAA is completely unavailable, and if you and we cannot
agree on a substitute, then either you or we may request that a
court with jurisdiction appoint a substitute.
Fees and Costs. If you wish to begin arbitration against us but
you cannot afford to pay the AAA’s or arbitrator’s costs, we will
advance those costs if you ask us in writing. Any request like this
should be sent to Discover, P.O. Box 30421, Salt Lake City, UT
84130-0421. If you lose the arbitration, the arbitrator will decide
whether you must reimburse us for money we advanced for you
for the arbitration. If you win the arbitration, we will not ask for
reimbursement of money we advanced. Additionally, if you win the

ARBITRATION
arbitration, the arbitrator may decide that you are entitled to be
reimbursed your reasonable attorneys’ fees and costs (if actually
paid by you).
Hearings and Decisions. Arbitration hearings will take place in
the federal judicial district where you live. A single arbitrator will
be appointed. The arbitrator must:
• Follow all applicable substantive law, except when contradicted
by the FAA;
• Follow applicable statutes of limitations;
• Honor valid Claims of privilege;
• Issue a written decision including the reasons for the award.
The arbitrator’s decision will be final and binding except for any
review allowed by the FAA. However, if more than $100,000 was
genuinely in dispute, then either you or we may choose to appeal to
a new panel of three arbitrators. The appellate panel is completely
free to accept or reject the entire original award or any part of it.
The appeal must be filed with AAA not later than 30 days after
the original award issues. The appealing party pays all appellate
costs unless the appellate panel determines otherwise as part of
its award.
Claim Notice and Special Payment. If you have a Claim, before
initiating an arbitration proceeding, you may give us written notice

of the Claim (“Claim Notice”) at least 30 days before initiating the
arbitration proceeding. The Claim Notice must include your name,
address, and account number and explain in reasonable detail the
nature of the Claim and any supporting facts. Any Claim Notice shall
be sent to us at Discover, P.O. Box 794, Deerfield, IL 60015 (or such
other address as we shall subsequently provide to you). If, and only
if, (1) you submit a Claim Notice in accordance with this agreement
on your own behalf (and not on behalf of any other party); and (2)
an arbitrator, after finding in your favor in any respect on the merits
of your Claim, issues you an award that (excluding any arbitration
fees or attorneys’ fees and costs awarded by the arbitrator) is
greater than the value of Discover’s last written settlement offer
made before an arbitrator was selected, then you will be entitled to
the amount of the award or $7,500, whichever is greater. If you are
entitled to the $7,500, you will receive in addition any arbitration
fees or attorneys’ fees and costs awarded by the arbitrator.
Any arbitration award may be enforced (such as through a
judgment) in any court with jurisdiction.
Other Beneficiaries of this Agreement. In addition to you and
us, the rights and duties described in this arbitration agreement
apply to: our Affiliates and our and their officers, directors and
employees; any third party co-defendant of a Claim subject to this
arbitration agreement; and all joint Accountholders and Authorized

Your Billing Rights:
Keep This Document For Future Use

Users of your Account(s).
Survival of this Agreement. This arbitration agreement shall
survive:
• closing of your Account;
• voluntary payment of your Account or any part of it;
• any legal proceedings to collect money you owe;
• any bankruptcy by you; and
• any sale by us of your Account.
You Have the Right to Reject Arbitration for this Account.
You may reject the arbitration agreement but only if we
receive from you a written notice of rejection within
30 days of your receipt of the Card after your Account is
opened. You must send the notice of rejection to: Discover,
P.O. Box 30938, Salt Lake City, UT 84130-0938. Your rejection
notice must include your name, address, phone number, Account
number and personal signature. No one else may sign the rejection
notice for you. Your rejection notice must not be sent with any
other correspondence. Rejection of arbitration will not affect
your other rights or responsibilities under this Agreement. If
you reject arbitration, neither you nor we will be subject to the
arbitration agreement for this Account. Rejection of arbitration
for this Account will not constitute rejection of any prior or future
arbitration agreement between you and us.

After we finish our investigation, one of two things will happen:
• If we made a mistake: You will not have to pay the amount in question or any interest or other fees
related to that amount.
• If we do not believe there was a mistake: You will have to pay the amount in question, along with
applicable interest and fees. We will send you a statement of the amount you owe and the date
payment is due. We may then report you as delinquent if you do not pay the amount we think
you owe.

This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at:
Discover
P.O. Box 30421
Salt Lake City, UT 84130-0421.
You may also contact us on the Web: https://discover.com/billingerrornotice

If you receive our explanation but still believe your bill is wrong, you must write to us (or visit
https://discover.com/billingerrornotice) within 10 days telling us that you still refuse to pay. If you do so,
we cannot report you as delinquent without also reporting that you are questioning your bill. We must tell
you the name of anyone to whom we reported you as delinquent, and we must let those organizations
know when the matter has been settled between us.

In your letter or on the Web, please give us the following information:
• Account information: Your name and account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your bill, describe what you believe is wrong
and why you believe it is a mistake.

If we do not follow all of the rules above, you do not have to pay the first $50 of the amount you
question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases

You must contact us:
• Within 60 days after the error appeared on your statement.
• By 5:00 P.M. ET on the date an automated payment is scheduled, if you want to stop payment on the
amount you think is wrong. You must notify us of any potential errors in writing or electronically. You
may call us, but if you do we are not necessarily required to investigate any potential errors and you
may have to pay the amount in question.

If you are dissatisfied with the goods or services that you have purchased with your credit card, and you
have tried in good faith to correct the problem with the merchant, you may have the right not to pay the
remaining amount due on the purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in your home state or within 100 miles of your current mailing
address, and the purchase price must have been more than $50. (Note: Neither of these are necessary
if your purchase was based on an advertisement we mailed to you, or if we own the company that
sold you the goods or services.)

What Will Happen After We Receive Your Letter or Web Submission
When we receive your written or electronic notice, we must do two things:
1. Within 30 days of receiving your notice, we must tell you that we received it. We will also tell you if
we have already corrected the error.
2. Within 90 days of receiving your notice, we must either correct the error or explain to you why we
believe the bill is correct.

2. You must have used your credit card for the purchase. Purchases made with cash advances from an
ATM or with a check that accesses your credit card account do not qualify.
If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in writing
or electronically at:

While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as delinquent on that amount.
• The charge in question may continue to appear on your statement.
• While you do not have to pay the amount in question, you are responsible for the remainder of
your balance.
• We can apply any unpaid amount against your credit limit.

Discover
P.O. Box 30945
Salt Lake City, UT 84130-0945
https://discover.com/billingerrornotice
While we investigate, the same rules apply to the disputed amount as discussed above. After we
finish our investigation, we will tell you our decision. At that point, if we think you owe an amount
and you do not pay, we may report you as delinquent.

-6-

